Office of Inspector General



U.S. Department of Labor
Washington Audit Office




                            STATE OF WYOMING
                      DEPARTMENT OF EMPLOYMENT
                     REVIEW OF STAFF TIME CHARGING
                                 Period of Review
                     October 1, 1998 thru September 30, 2001




                                          Report Number: 21-02-300-11-001
                                          Date Issued:   March 18, 2002
                                                  TABLE OF CONTENTS

                                                                                                                                           Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          1


INTRODUCTION


     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            3
     Objective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         3
     Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     3


FINDINGS AND RECOMMENDATIONS


     Finding 1: AAMC carryover funds were not used to supplement BLS’
                base programs, nor was there a violation of the Federal
                appropriation law relating to the use of these funds. . . . . . . . . . . . . . . . . . .                                    4

     Finding 2: R&P staff inappropriately charged time to BLS programs. . . . . . . . . . . . . . 4


APPENDIX A -- Agency Response to Draft Report
                                  EXECUTIVE SUMMARY


This report contains the results of our review of a hotline complaint pertaining to inappropriate
time charging in the State of Wyoming’s Department of Employment (Wyoming). Our primary
objective was to determine if the following allegations could be substantiated:

    · Additional Activities to Maintain Currency (AAMC) funds carried over from the prior
      fiscal year were misused to supplement BLS’ base program funds.

    · Research and Planning (R&P) staff were instructed to charge time to specific Fund Ledger
      Codes based on predetermined percentages to ensure all funds were spent by the end of
      the fiscal year.

In summary, we found (1) AAMC carryover funds were not used to supplement BLS base
programs, nor was there a violation of the Federal appropriation law relating to the use of these
funds; however, (2) the R&P staff inappropriately charged time to BLS programs by using
predetermined percentages.

We recommend that BLS:

   Follow up with Wyoming to verify that the R&P staff are recording only the time they
   actually work on each program, and work with Wyoming to utilize BLS’ budget funding
   flexibility procedures that allow the State grantees funding flexibility between BLS programs.

   Issue a Labor Market Information (LMI) Administrative Memorandum on the subject of state
   time charges. The memorandum should be issued to all participating states and BLS regional
  commissioners (RC) and cover (1) subject matters pertaining to clarifying and documenting
  proper staff time reporting procedures; and (2) instructions pertaining to BLS RCs’
  responsibilities relating to state time reporting.

In its response to our draft report dated February 19, 2002 (Appendix A), BLS stated that its
Dallas Regional Office will periodically follow up with Wyoming to ensure staff is fully informed
of the need to reflect time charges appropriately and that the time charged is accurately reflected.
 In addition, the Dallas Regional office will ensure that Wyoming management and financial
staffs are fully aware of the flexibility inherent in the budget variance process. Finally, within 6
months of the issuance of the final report, BLS’ National Office will issue an LMI Administration
Memorandum to address each of the points in the recommendation to State grantees and BLS
regional office staff.




                                   1
Based upon BLS’ response, the status of the two recommendations in Finding 2 are as follows:

    Recommendation #1 is resolved and open based on BLS’ planned corrective action to
    follow up with Wyoming. To close this recommendation, BLS needs to provide
    documentation to OIG summarizing the follow up actions taken.

    Recommendation #2 is resolved and open based on BLS’ plan to issue an LMI
    Administrative Memorandum to State grantees and BLS regional office staff. To close this
    recommendation, BLS needs to issue the LMI Administrative Memorandum that addresses
    the points made in the recommendation.




                                 2
                                      INTRODUCTION

Background

In October 2001, the OIG received a hotline complaint alleging the misuse of AAMC accounts by
Wyoming. The complainant also alleged that the Director of LMI had initiated a practice where
staff were instructed to charge predetermined percentages of their time to programs to ensure all
the funds were spent by the end of the program year. Further, the complainant alleged that the
LMI Director considers all the funding to be a block grant.

In addition to the allegations, the complainant provided a copy of a DOL OIG report (Number:
12-97-008-11-001) where similar issues pertaining to AAMC funds were discussed. The
complainant stated that these findings in this report were ignored.

Objective and Scope

The objective of our review was to determine if the following two allegations could be
substantiated: (1) AAMC funds carried over from the prior fiscal year were misused to
supplement BLS’ base program funds; and (2) R&P staff were instructed to charge time to
specific Fund Ledger Codes based on predetermined percentages to ensure all funds were spent
by the end of the fiscal year.

We interviewed BLS officials at the National Office and Dallas Regional Office, and we
interviewed all 19 staff in the State’s R&P section. In addition, we had telephone conversations
with the complainant, and we reviewed staff time sheets and State reports.

Our review was conducted in accordance with applicable Government Auditing Standards, issued
by the Comptroller General of the United States.




                                  3
                       FINDINGS AND RECOMMENDATIONS

The following two findings describe the allegations and our conclusion. Since we did not find a
problem with the first allegation, a recommendation was not warranted. The second allegation
was substantiated; thus, recommendations are included with this finding.

3. AAMC carrryover funds were not used to supplement BLS’ base programs, nor was there a
   violation of the Federal appropriation law relating to the use of these funds.

   One of the allegations in the hotline complaint pertained to a Federal appropriation law issue,
   which alleged that AAMC funds carried over from the prior fiscal year were being misused to
   supplement BLS’ base program budgets.

   AAMC funds are used by BLS to develop special projects that support or enhance its base
   programs. Both the base programs and the AAMC funds come from the same appropriation.
   AAMC funds obligated in one year can be carried forward to the next year; however, those
   funds are restricted to the project for which they were obligated.

   We determined, through reviews of staff time sheets and interviews with the staff who worked
   on AAMC projects, that staff were reasonably charging their time to the AAMC accounts.
   Therefore, the allegation of staff using AAMC carryover funds to work on other BLS base
   programs was not substantiated.


2. R&P staff inappropriately charged time to BLS programs.

   The complainant alleged that R&P staff had been instructed by the R&P manager to charge
   their time to specific programs using predetermined percentages to ensure all the funds were
   spent by the end of the fiscal year.

   We interviewed all 19 R&P staff and compared the staff time sheets to the information the
   staff provided on the amount of time they estimated working on BLS programs. We found
   that 13 staff were recording their time, as instructed by the R&P manager, to specific Fund
   Ledger Codes (FLC) based on predetermined percentages. The remaining six staff were
   recording their actual hours worked on each program.

   Of the 13 staff recording their time to specific FLCs based on predetermined percentages, four
   staff had significant differences between the hours reported on their individual monthly time
   sheets compared to the actual hours worked by FLC. Two of these four staff, worked
   exclusively on the 202 program, but were charging one-half of their time each month to the
   CES program. The remaining nine staff had insignificant differences between the hours
   reported on their monthly time sheets, compared to the hours they estimated that they had
   worked on their assigned programs.



   We discussed the issue of staff being instructed to charge predetermined percentages to

                                  4
   specified FLCs with the R&P manager. He stated that he considers all funding received from
   BLS to be a block grant. Further, to ensure all deliverables are met within each program’s
   budget, he adopted this strategy. He further stated that if staff were only allowed to work on a
   program up to the budget limitation, deliverables would not be met and experienced staff
   might have to be laid off. This would be disruptive to the office, and staff would have to be
   hired and trained when new funding was received.

   BLS has procedures that allow the state grantees funding flexibility. The procedures are: (1)
   states may propose to redirect funds among programs modifying the cooperative agreement;
   (2) funds can be moved from state to state through the modification process; and (3) states can
   move funds from base programs with surpluses to base programs with deficits, within their
   overall cooperative agreement funding total, at the end of the fiscal year, using BLS’ budget
   variance policy.

   In addition, states can use predetermined percentages to allocate costs to programs, but must
   periodically test these percentages to ensure they accurately reflect actual hours worked. The
   individual time sheets, signed and dated by the employee and supervisor, should always report
   actual hours worked on specific programs. This recorded time can periodically be used to test
   the predetermined percentages.

   Conclusion

   R&P staff inappropriately charged time on their individual time sheets. BLS policies
   allowing states funding flexibility and other cost allocation methodologies eliminate the need
   for Wyoming to continue its current staff time charging practice. In a response received from
   Wyoming, dated January 16, 2002, the Administrator from the Employment Tax Division,
   stated: “All staff have been instructed to report actual hours worked in each program, as of
   January 2, 2002.”

Recommendations

To ensure Wyoming has discontinued its improper time charging practice and that all states
properly administer BLS programs, we recommend that BLS:

1. Follow up with Wyoming to verify that the R&P staff is recording only the time they actually
   work on each program, and work with Wyoming to utilize BLS’ budget funding flexibility
   procedures.

2. Issue an LMI Administrative Memorandum to all participating states and BLS regional
   commissioners to cover the following:

   a. reinforce that when submitting financial reports, the states are certifying that they are
      correct and, thus, that time charges were accurately recorded;


   b. specify that state staff must accurately reflect their time according to the activity worked
      and using predetermined percentages to allocate time charges between activities is

                                   5
       prohibited;

   c. reinforce that the budget variance process is the correct mechanism to use to balance
      marginal differences in spending among the programs;

   d. require the BLS Assistant Regional Commissioners to review the above LMI
      memorandum and other administrative reporting requirements with the LMI Directors, on
      an annual basis; and

   e. require regional staff to report any indication where there is a misrepresentation of staff
      working on their program.

Auditee’s Response

In its response to the draft report, BLS stated that its Dallas Regional Office will periodically
follow up with Wyoming to ensure staff is fully informed of the need to reflect time charges
appropriately and that the time charged is accurately reflected. In addition, the Dallas Regional
office will ensure that Wyoming management and financial staffs are fully aware of the flexibility
inherent in the budget variance process. Finally, within 6 months of the issuance of the final
report, BLS’ National Office will issue and LMI Administration Memorandum to address each of
the points in the recommendation to State grantees and BLS regional office staff.

Auditor’s Conclusion

Recommendation #1 is resolved and open based on BLS’ planned corrective action to follow up
with Wyoming. To close this recommendation, BLS needs to provide documentation to OIG
summarizing the follow up actions taken with respect to Wyoming.

Recommendation #2 is resolved and open based on BLS’ plan to issue an LMI Administrative
Memorandum to State grantees and BLS regional office staff. To close this recommendation,
BLS needs to issue the LMI Administrative Memorandum that addresses the points made in the
recommendation.




                                   6
